BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioners in 20- 773, Nazir
Khan, Iftikhar Khan v. Merit Medical Systems Inc., et
al., was sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 13th
day of April, 2021:
Brian David Schmalzbach
McGuire Woods LLP
800 East Canal Street
Richmond, VA 23219
(804) 775-4746
bschmalzbach@mcguirewoods.com

Counsel for Mark Grove, M.D., and Javier AlvarezTostado, M.D.
David R. Todd
Workman Nydegger
60 East South Temple
Suite 1000
Salt Lake City, UT 84111
(801) 533-9800
dtodd@wnlaw.com

Counsel for Merit Medical Systems, Inc., et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

I www.beckergallagher.com

I

8790 Governor's Hill Drive

I Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

Jonathan A. Herstoff
Counsel of Record
Camille Y. Turner
Kaitlin M. Abrams
Haug Partners LLP
745 Fifth Avenue
New York, NY 10151
(212) 588-0800
jherstoff@haugpartners.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 13, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

